<html>
<title> - REVIEW OF THE 2005 WILDFIRE SEASON & PREVIEW OF THE 2006 WILDFIRE SEASON</title>
<body><pre>[Senate Hearing 109-475]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-475
 
   REVIEW OF THE 2005 WILDFIRE SEASON & PREVIEW OF THE 2006 WILDFIRE 
                                 SEASON

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   TO

  REVIEW THE 2005 WILDFIRE SEASON & FEDERAL LAND MANAGEMENT AGENCIES' 
               PREPARATIONS FOR THE 2006 WILDFIRE SEASON

                               __________

                             APRIL 5, 2006


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
28-622                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               KEN SALAZAR, Colorado
GORDON SMITH, Oregon                 ROBERT MENENDEZ, New Jersey
JIM BUNNING, Kentucky

                     Bruce M. Evans, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                CONRAD R. BURNS, Montana, Vice Chairman

CRAIG THOMAS, Wyoming                RON WYDEN, Oregon
JAMES M. TALENT, Missouri            DANIEL K. AKAKA, Hawaii
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
GEORGE ALLEN, Virginia               DIANNE FEINSTEIN, California
                                     MARIA CANTWELL, Washington

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Frank Gladics, Professional Staff Member
                    Scott Miller, Democratic Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     2
Craig, Hon. Larry E., U.S. Senator From Idaho....................     1
Hatfield, Nina Rose, Deputy Assistant Secretary, Policy, 
  Management and Budget, Department of the Interior..............     4
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     3
Rey, Mark, Under Secretary for Natural Resources and the 
  Environment, Department of Agriculture.........................     6
Salazar, Hon. Ken, U.S. Senator From Colorado....................    17
Wyden, Hon. Ron, U.S. Senator From Oregon........................     3

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    29

                              Appendix II

Additional material submitted for the record.....................    33


   REVIEW OF THE 2005 WILDFIRE SEASON & PREVIEW OF THE 2006 WILDFIRE 
                                 SEASON

                              ----------                              


                        WEDNESDAY, APRIL 5, 2006

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:32 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Larry Craig 
presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. Good afternoon, everyone, and thank you for 
attending this oversight hearing on Federal fire preparedness. 
I'd like to welcome everyone to the hearing this afternoon and 
to develop an overview of this year's fire season.
    Today, testimony will be provided by the Department of 
Agriculture's Under Secretary of Natural Resources and 
Environment, Mark Rey. Mark, welcome before the committee. And 
the Department of the Interior's Deputy Assistant Secretary of 
Policy, Management, and Budget, that's Miss Nina Rose Hatfield. 
Nina, welcome again. Both are accompanied by their respective 
fire experts who will be happy to answer the questions we might 
have. Welcome to all of you.
    As you all know, we are heading into this year's fire 
season and in some regions of the country it has already been 
an extraordinary fire season. One only has to look at what 
happened in Texas and Oklahoma with hundreds of thousands of 
acres burned in January and February to worry about what kind 
of fire season we will have in the Southwest and in southern 
California. For many other parts of the country where winter 
moisture is near normal, we will have to see how much and at 
what frequency we get summer rains that could control our fire 
seasons. Sadly, the conditions of our Federal lands when it 
comes to hazardous fuels is not changing quickly enough to make 
anyone believe that one wet winter is going to put an end to 
the string of bad and worsening fire years.
    There are a number of changes in fiscal policy and shifts 
in budget priorities that concern many senators, including 
myself, but I'm going to leave them to the questions and 
answers period of today's session. I do want to bring up an 
issue that I believe underlies the entire question of why fire 
suppression is so expensive, as well as a concern I have with 
the recent shift in funding within the fiscal year 2006 
hazardous fuels account. On March 30, the chief signed a memo 
to all regional foresters, station directors, and area 
directors pulling about $10 million in hazardous fuels funding 
to spend that money in southern California. This redirection of 
funding means that regions one and four, where my State is 
located, will see approximately 2,000 acres less hazardous fuel 
work done in this fiscal year than was originally planned, and 
unless I miss my guess, the $414,561 being withdrawn from 
regions one and four would accomplish many more acres in the 
inner mountain country than they will in southern California.
    So, Under Secretary Rey, would you please be so kind as to 
explain why, after Congress focused so much emergency 
supplemental hazardous fuels funds on southern California 
forests over the last 3 or 4 years, the Forest Service thinks 
that hazardous fuel suppression funding in southern California 
is so much more important than similar work in my State of 
Idaho. I will close by telling you that I will have a number of 
other questions on this and will likely also submit additional 
questions on this subject for your staff to answer.
    Also for those of you interested in the implementation of 
the Healthy Forest Restoration Act, I anticipate holding an 
oversight hearing on the implementation of that act in June and 
July. So now let me turn first to the ranking member of the 
full committee, Senator Bingaman of New Mexico.
    Jeff.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Thank you very much, Mr. Chairman, and I 
appreciate you and Senator Wyden having this hearing and 
letting me participate. Let me just indicate the great concern 
that I have--and I think all of New Mexico's elected officials 
probably have--about the potential extreme fire risk that we 
see in our State over the next few months. We have an extreme 
drought that we have been experiencing in our State. The 
Governor has declared a statewide fire emergency. This is the 
first time in our State's history that that has happened. At 
the same time, the State and Federal wildfire management 
agencies currently are struggling to overcome a 20 percent cut 
in the Forest Service wildfire preparedness budget, and that's 
on top of a $2 million dollar cut from last year, fiscal year 
2005. The State fire assistance budget for the Southwest has 
been cut by 77 percent since 2003, and BLM is proposing to 
eliminate altogether its $10 million State and local fire 
assistance program. So these are important programs, and have 
been important programs for our State.
    I also am concerned about the issue that Senator Craig 
raised about this recent directive from Washington to 
reallocate hazardous fuels reduction funds from my State of New 
Mexico to California. The directive cuts more from the 
Southwest than from any other region, even though, as I can see 
it--I may be missing something in the weather reports--but as I 
see it, there's no place in the country that is more likely to 
need that funding in the next few months than New Mexico. So I 
think the cutting of those funds is not justified based on all 
that I know and I hope to ask some questions about that. Thank 
you.
    Senator Craig. Jeff, thank you very much.
    Let me turn to the ranking member of the Subcommittee on 
Public Lands and Forests, serving with me on this subcommittee, 
Senator Ron Wyden. Ron.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman. I think you and 
Senator Bingaman have said it very well and I would only add 
the following briefly. It was a bad fire year last year and 
certainly for many communities around the country it looks like 
we're going to get hit with infernos once more. But it seems to 
me the administration is still ignoring the basic problems that 
feed these horrible fires and literally my constituents call 
them infernos.
    The problems essentially fall into three areas: inadequate 
funding for hazardous fuels, reductions, and thinning. I was 
very pleased, Mr. Chairman, you mentioned we're going to do an 
oversight hearing in this area. I think that's very 
constructive, and as always, I want to work with you in a 
bipartisan way on that. I hear constantly from local 
communities that they are not getting the money for the 
thinning that's needed. So inadequate funding for hazardous 
fuels reductions, inadequate flexibility so that communities 
that need less, depending on the year, for fire suppression, 
and we could use more of the dollars for fire prevention. I 
think that we all understand it is an important preventive kind 
of medicine. It, too, is being shorted.
    Also, I think you and Senator Bingaman have touched on the 
funding cuts, reallocating money to southern California seems 
to me to be a dubious proposition at best, but in addition, we 
are seeing inadequate support for the handful of programs that 
make a difference in rural communities and particularly help to 
leverage funds at the local level. For example, the Forest 
Service has a program called the Economic Action Program that 
for every dollar the Federal Government has made available, 
something like $5 has been generated at the local level from 
nonprofit programs and a variety of local kinds of sources, and 
these programs are being cut as well.
    So those are three, I think, unfortunate trend lines with 
respect to how the Government deals with this fire issue. I 
look forward to working with you and Senator Bingaman and 
Senator Murkowski and our committee of westerners that have 
taken a special interest in this for a reason, and that is that 
we have had an awful lot of these tragedies over the last few 
years in our part of the world.
    Senator Craig. Ron, thank you very much. Now let us turn to 
our panel. Oh, I'm sorry, Lisa, you moved in and I was less 
than observant. Let me recognize the Senator from Alaska, Lisa 
Murkowski, for any opening comments she would like to make.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I don't really 
have any formal opening comments. I'm here again to check on 
what the prognosis is for my State. Looking at the map, it 
looks like about half of the State is expected to be up in 
flames this year. We hope that's not the case. As I look at it, 
the areas where we're not predicted to have fire, it's partly 
because that's a tropical rainforest. The northern part has no 
trees and the Aleutian chain is in a different kind of 
geography of its own. So we're very concerned up north.
    I appreciate the focus of today's hearing being on the 
impacts of last year's fire season, and what's happened thus 
far this year. The good news for us up north is that we still 
have good snow cover and our season hasn't started, but last 
year we started in early April and we're concerned once again. 
And so I appreciate the focus, Mr. Chairman, and look forward 
to the testimony from the witnesses.
    Senator Craig. Senator Murkowski, thank you very much.
    Now let me turn to Mark Rey, the Department of 
Agriculture's Under Secretary for Natural Resources and 
Environment. Once again, Mark, welcome before the committee. We 
get you here, if not on a monthly basis, a biweekly basis and 
we appreciate it. Thank you.
    Mr. Rey. It seems just like yesterday. On this particular 
one, we thought that Secretary Hatfield would go first, if 
that's all right with you.
    Senator Craig. All right. Nina, thank you very much. 
Secretary Hatfield, please proceed.

 STATEMENT OF NINA ROSE HATFIELD, DEPUTY ASSISTANT SECRETARY, 
     POLICY, MANAGEMENT AND BUDGET, DEPARTMENT OF INTERIOR

    Ms. Hatfield. Well, thank you, Mr. Chairman, and members of 
the subcommittee. We appreciate this opportunity to review the 
Forest Service and the Department of the Interior's 
preparedness for the 2006 fire season. Accompanying us are Jim 
Douglas, who's the Deputy Director of the Office of Wildland 
Fire Coordination in the Department of the Interior and Tom 
Harbour, who's the Director of Fire and Aviation Management 
with the Forest Service.
    There are three themes that characterize our efforts in 
wildland fire management and hazardous fuel reduction: the 
availability of forces that are necessary to achieve a high 
rate of success, good management of our firefighting forces, 
and collaboration with our partners. Our preparedness ensures 
initial attack capability, with public and firefighter safety 
continuing to be the highest priority in our operations.
    As we look back on the 2005 fire season, it was a year of 
fire, wind, and rain. Approximately 66,000 fires burned 8.7 
million acres of Federal, State, and private lands. Fifty 
percent of that acreage was in Alaska. The western and eastern 
Great Basin and southwest also experience significantly greater 
than normal fire activity. Importantly, wildland fire use 
accounted for an additional 489,000 acres. In 2005, Federal 
fire suppression cost totaled $984 million.
    Now, in addition to those fire activities, we also were 
tasked by FEMA for emergency response under the National 
Response Plan following Hurricane Katrina and Rita. The 
interagency response peaked on October 1 with 28 incident 
management teams on assignment. We had approximately 5,500 
people, including 139 crews and 2,780 management and support 
personnel assigned. While most of the response operations wound 
down in November, interagency teams continue to work with the 
States to plan for long-range fuel mitigation, fire readiness 
and prevention, and the fire suppression effort. The remaining 
personnel and equipment still providing State forestry 
assistance for hurricane response efforts will be demobilized 
on April 8.
    As we look forward to the 2006 seasonal wildland fire 
outlook, the 2006 fire season, as you've noted, started early 
this year and fire activity has been well above normal in the 
southern and eastern areas of the United States. As this map 
demonstrates, the National Interagency Fire Center Predictive 
Services Office expects fire potential to be significantly 
higher than normal in the Southwest, southern California, 
portions of the Rocky Mountain area, Texas, Oklahoma, and 
central Alaska. Due to the lack of snow and rain, very dry 
conditions also extend from Florida to Virginia where an active 
fire season is likely this spring. Warmer than normal 
conditions are expected over much of the south and west with 
drier than normal conditions predicted primarily from the 
southern Rockies to the southeast coast. By midsummer, other 
portions of the rest, such as the Great Basin or northern 
California, are expected to see above-normal fire potential. 
Overall, we anticipate a very active fire season for the 
remainder of 2006.
    In anticipation of that, we have secured and are securing 
firefighting forces, firefighters, equipment, and aircraft 
comparable to those that were available in 2005. The location 
of fire risk shifts with the progression of spring and summer, 
as the need arises, we will increase our firefighting ability 
by locating our firefighters and equipment in the areas of 
severe risk. The predictive services staff continually analyzes 
weather, climate, and fuel conditions. The frequency of their 
assessments continue to increase as the fire season progresses. 
Fire managers can use these analyses to assign local, 
geographic, and national firefighting personnel and equipment 
based upon anticipated fire starts, fire spread, and severity.
    Our 2006 firefighting forces include full-time professional 
fire program leaders, firefighters hired based on geographic 
area fire seasons, Federal agency personnel who are qualified 
and mobilized as needed to perform incident management duties, 
State and local personnel, contract equipment, aircraft and 
crews, firefighting personnel from other countries, and 
Department of Defense aircraft and personnel. Overall, we 
anticipate that more than 18,000 firefighters will be 
available, including the permanent and seasonal Federal and 
State employees, crews from tribal and local governments, 
contract crews, and emergency temporary hires. We intend to 
have 17 Type-1 national interagency incident management teams 
and 38 Type-2 incident management teams available for 
geographic or national incidents.
    As in the past, initial attack of a fire is handled by the 
closest available local resource regardless of our agency 
jurisdictions. When local areas experience severe fire risk we 
will continue to move firefighters, equipment, and teams to 
those areas to increase our firefighting ability. So with that 
I'd like to turn to Mr. Rey to talk about the rest of our 
statement.

 STATEMENT OF MARK REY, UNDER SECRETARY FOR NATURAL RESOURCES 
         AND THE ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Rey. Thank you very much. As you can see, we have 
submitted a single statement for the record and my statement 
picks up in the discussion of our aviation program. That was, 
indeed, the subject of a previous hearing on February 15, so I 
will not repeat that testimony except to say that our 2006 
aviation plan includes 16 large air tankers, 258 large and 
medium helicopters, 2 CL-215 airtankers, 107 single-engine 
tankers, and a total of 8, over the course of the year, 
military C-130 aircraft equipped with modular airborne 
firefighting system units. Some of those C-130's have already 
been used in the south-central States in the fire season so 
far.
    For fiscal year 2006, the total fire preparedness budget 
for the fire program for both Departments is $934.9 million. 
The Forest Service receives $666 million and allocates $478 
million of this to its regions for fire preparedness. The 
remaining $188 million supports a variety of services, such as 
the National Interagency Fire Center, the National Advanced 
Fire and Resource Institute in Tucson, the Washington Fire and 
Aviation program and projects, the Missoula and San Dimas 
Technical Development Centers, and the Albuquerque Service 
Center for processing personnel and business transactions. The 
Department of the Interior receives $268.8 million for fire 
preparedness that is allocated to the four participating U.S. 
Department of the Interior Bureaus.
    Over the last several weeks, as the 2007 budget has been 
proposed, we've seen a number of statements to one degree or 
another taking issue with individual line items in the National 
Fire Plan account implying that funding for the National Fire 
Plan overall is being reduced. That is emphatically not the 
case. Funding for the National Fire Plan has increased each 
year since 2001. Indeed it's worth noting that in 2000 we were 
spending, together with the Department of the Interior, $936 
million to implement the National Fire Plan. We are requesting 
for fiscal year 2007 $2.57 billion, an all-time record for an 
administration request in this area.
    Now, obviously, within that overall budget we make 
adjustments in individual line items. Some are up, most are up, 
some are down and there are good reasons for those which are up 
and those which aren't and we can talk about those 
individually. But I want to belay the impression that because a 
single line item is down--particularly a relatively small line 
item, since those are the ones we hear the most about--anyone 
should come away with the impression that overall funding is 
down, because that's not the case. It is, in fact, up. It is, 
in fact, up substantially from where it was 6 years ago.
    In addition to overall budgets, we have been engaged, as 
our testimony indicates, in an effort over the last 2\1/2\ 
years for cost containment on large incident fires, those fires 
which account for about 85 percent of the suppression costs. 
Several improvements have been made and that effort will 
continue this year along the lines indicated in our testimony.
    With regard to hazardous fuels reduction, we have, as you 
all know, a tremendously complex, dangerous fire and fuel 
situation in the United States. Many of the issues that we're 
addressing in the fuels area are particularly challenging due 
to extended drought, but we're pleased to report both a 
substantial increase in collaborative community-based planning 
to help restore forested landscapes, as well as absolute 
accomplishments over the last 5 years in what we've been able 
to treat. Today, on the average, we are treating four times 
more acres per year of Federal lands that are at risk to 
catastrophic fire than we were in any of the years of the 
1990's. By the end of fiscal year 2007, the budget year which 
we're currently considering, assuming that Congress funds our 
request for fuels treatment in 2007 and that we meet our 
targets, we will have treated somewhat in excess of 26 million 
acres, 26.2 million acres to be precise. That's somewhat larger 
than the land mass of the State of Ohio, which is the State 
from which I originate, therefore it has some resonance to me. 
For the people in the field who were pushing hard to do this 
treatment work, I can assure you they're glad I wasn't born in 
Texas.
    [Laughter.]
    Mr. Rey. The stewardship contract authority that you 
granted us beginning in 2003 has also been significant and 
beneficial. We have created 207 stewardship contracts since 
that time. We have 60 more scheduled for creation this year and 
80 more for 2007. And the receipts that have been returned to 
us from those contracts have generated $8.5 million, which has 
been reprogrammed into fuels treatment work. So by any measure, 
the success has been substantial. The budgets have been 
substantial, indeed, as is the case with fire suppression. The 
budget request for fuels treatment is an all-time record. Now, 
we can debate whether, notwithstanding the fact that it's an 
all-time record for an administration request, it's high 
enough, but I would say with all due respect that Congress has 
failed to fund the administration's fuels treatment request in 
2006 and 2005. So I don't think that the primary issue is with 
the request, it's with the allocations that we make during the 
appropriations process.
    With that, we will be happy to respond to any of your 
questions. I'll start by responding to the first one posed by 
Senator Craig and echoed by Senator Bingaman and that's the 
most recent reallocation proposal to put more money into 
southern California. We do think, given the resource values 
that are at stake in southern California, that that's a wise 
investment. We have reconsidered taking any money out of other 
regions, and about $2.5 million that we were reprogramming from 
other regions we're not going to do. We'll find the $2.5 
million by reprogramming from other accounts and other 
priorities either within the California region or in the 
headquarters office. So I think we can assure you that, as was 
the case in the original program allocation among the regions, 
every region will see at least a slight increase in fuels 
treatment dollars in 2006 over what they saw in 2005. With 
that, both Secretary Hatfield and I would be happy to respond 
to your questions.
    [The prepared statement of Ms. Hatfield and Mr. Rey 
follows:]

 Prepared Statement of Nina Rose Hatfield, Deputy Assistant Secretary, 
  Policy, Management and Budget, Department of the Interior, and Mark 
Rey, Under Secretary for Natural Resources and Environment, Department 
                             of Agriculture

                              INTRODUCTION

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to review with you the Forest Service's and the Department 
of the Interior's preparedness for the 2006 fire season. Since the 
Department of the Interior and the Department of Agriculture work 
closely together in fire management, the two Departments are providing 
a joint statement.
    Three themes characterize our efforts in wildland fire management 
and hazardous fuels reduction--availability of forces necessary to 
achieve a high rate of success, good management of firefighting forces, 
and collaboration with partners. Our preparedness ensures initial 
attack capability, with public and firefighter safety continuing to be 
a core value in our operations. Reducing fuels to lessen the risk and 
severity of fires--preventative treatment--is a critical part of our 
fire management efforts.

                            2005 FIRE SEASON

    2005 was a year of fire, wind, and rain. Approximately 66,000 fires 
burned 8.7 million acres of Federal, State, and private lands; 50 
percent of the acreage was in Alaska. Other areas of the country 
experiencing significantly greater than normal fire activity were the 
western and eastern Great Basin and the Southwest. Twenty five fires 
exceeded 40,000 acres each. wildland fire use--by which fire was used 
to achieve resource management objectives in predefined geographic 
areas--accounted for an additional 489,000 acres. FY2005 Federal fire 
suppression costs totaled $984 million including costs for hurricane 
response.

                    HURRICANE EFFECTS AND AFTERMATH

    The Forest Service and Department of the Interior were tasked by 
the Federal Emergency Management Agency (FEMA) for emergency response 
under the National Response Plan following Hurricane Katrina which made 
landfall on August 29, 2005, on the Gulf Coast, and Hurricane Rita 
which made landfall on September 24, 2005, at Louisiana and Texas.
    The ability of the Forest Service, the Department of the Interior, 
and their partners to contribute to hurricane emergency response is 
based upon years of experience in wildfire suppression and the use of 
the Incident Command System, the Incident Qualifications and 
Certification System (IQCS) and the Resource Ordering and Status System 
(ROSS). Interagency response peaked on October 1 with 28 Incident 
Management Teams on assignment. Approximately 5,500 people, including 
139 crews and 2,780 management and support personnel, all qualified in 
the IQCS system, were assigned. In addition, 1734 pieces of equipment 
and 16 helicopters and fixed winged aircraft were mobilized and tracked 
through ROSS. Incident management teams managed all agency 
communications, coordinated the receipt and distribution of supplies, 
provided evacuees with food, shelter, and clothing, and supported 
emergency medical operations at the New Orleans base camp. Incident 
management teams also ran evacuation centers in Phoenix, Arizona, and 
Houston and San Antonio, Texas. Teams provided base camp operations and 
support to emergency responders and mortuary operations in 17 locations 
in Mississippi, Louisiana, and Texas. The agencies and their partners 
were able to adjust to the changing situation and provided coverage for 
fire suppression as well as rescue services.
    While most of the response operations wound down in November, 
interagency teams continue to work with the States to plan for long 
range fuel mitigation, fire readiness and prevention, and fire 
suppression. The remaining personnel and equipment still providing 
state forestry assistance for hurricane response efforts will 
demobilize by April 8. We have conducted over 320,000 acres of 
hazardous fuels reduction on National Forests in the Gulf states. In 
addition over 60,000 acres of mechanical fuels treatment contracts have 
been awarded in Mississippi National Forests. The Forest Service has 
waived the normal 50/50 matching requirements for State Fire Assistance 
grants to facilitate the States' procurement of equipment and services 
for preparedness, mitigation of the severe fuel loading, and fire 
suppression. Due to drought, the enormous damage to forests by the 
hurricanes and resulting debris, firefighting crews and equipment have 
been moved to the Gulf Coast in anticipation of increased fire risk.

                  2006 SEASONAL WILDLAND FIRE OUTLOOK

    The 2006 fire season started early this year, and fire activity has 
been well above normal in the Southern and Eastern areas of the United 
States. The National Interagency Fire Center (NIFC) Predictive Service 
Office expects fire potential to be significantly higher than normal 
across most of the Southwest, southern California, portions of the 
Rocky Mountain area, Texas, Oklahoma, and central Alaska. Recent 
precipitation in the Southwest and southern Plains will provide only 
temporary relief. Continued drought and carryover fine herbaceous fuels 
from 2005 will present an elevated risk of large fires over much of the 
West. Due to the lack of snow and rain, very dry conditions also extend 
from Florida to Virginia, where an active fire season is likely this 
spring. Assuming the weak La Nina pattern continues, warmer than normal 
conditions are expected over much of the South and West into the summer 
with drier than normal conditions predicted primarily from the southern 
Rockies to the southeast coast. By mid-summer other portions of the 
West, such as the Great Basin and northern California, are expected to 
see above normal fire potential. Overall, we anticipate a very active 
fire season for the remainder of 2006.
    In this challenging fire season, citizens who live or vacation in 
fire-prone areas can gain valuable information about how to increase 
their safety and protect their homes and property through the FIREWISE 
program. Homeowners can learn how to protect their homes with a 
survivable, cleared space and how to build their houses and landscape 
their yard with fire resistant materials. Information about the 
FIREWISE program can be found at www.firewise.org, sponsored by a 
consortium of wildland fire agencies that includes the Forest Service, 
the Department of the Interior, the National Fire Protection 
Association, and the National Association of State Foresters.

                              PREPAREDNESS

    For the 2006 fire season, we have secured firefighting forces--
firefighters, equipment, and aircraft--comparable to those available in 
2005 and achieve similar success at initial attack. As has already been 
demonstrated during the fires in the Southeast and Southwest, we 
increase firefighting ability by locating our firefighters and 
equipment in areas of severe fire risk. The location of fire risk 
shifts with the progression of spring and summer. The Predictive 
Services staff continually analyzes weather, climate, and fuel 
conditions; the frequency of their assessments increases as the fire 
season progresses. Fire managers use the analyses to assign local, 
geographic and, national firefighting personnel and equipment based on 
anticipated fire starts, fire spread, and severity.
    In 2006, firefighting forces include:

  <bullet> Full-time professional fire program leaders;
  <bullet> Firefighters hired based on geographic area fire seasons;
  <bullet> Federal agency personnel qualified and mobilized to perform 
        incident management duties in addition to their normal 
        responsibilities, often called the ``militia'';
  <bullet> State and local personnel (including volunteer fire 
        departments) through cooperative and mutual aid agreements;
  <bullet> Agency-owned equipment;
  <bullet> Contract equipment, aircraft, and crews; and
  <bullet> Firefighting personnel from other countries
  <bullet> Department of Defense aircraft and personnel.

    More than 18,000 firefighters will be available, including 
permanent and seasonal Federal and State employees, crews from Tribal 
and local governments, contract crews, and emergency/temporary hires. 
There are 17 Type 1 national interagency incident management teams (the 
most experienced and skilled teams) available for complex fires or 
incidents. Thirty-eight Type 2 incident management teams are available 
for geographical or national incidents.
    Initial attack of a fire is handled by the closest available local 
resource regardless of agency jurisdiction. Generally this means that 
the agency with management jurisdiction and protection responsibility 
for the location of the fire, such as a national forest, Bureau of Land 
Management unit, wildlife refuge, or national park, handles initial 
attack. The local fire manager requests additional forces if the fire 
continues to grow.
    The National Interagency Coordination Center, located in Boise, 
Idaho at NIFC, coordinates critical firefighting needs throughout the 
nation. In the event of multiple, simultaneous fires, firefighting 
forces are prioritized and allocated by the National Multi-Agency 
Coordinating group, a multiagency group of national fire directors also 
located at NIFC. Prioritizing ensures firefighting forces are 
positioned where they are needed most. Fire managers dispatch and track 
personnel, equipment, aircraft, vehicles, and supplies through an 
integrated national system. In 2006, if conditions become extreme, we 
will work with the Department of Defense under our standing agreements 
to provide assistance; in addition, firefighting forces are also 
available from Canada, Mexico, Australia, and New Zealand using 
established agreements and protocols.
    When local areas experience severe fire risk, we will continue to 
move firefighters, equipment, and teams to those areas to increase our 
firefighting ability.
    The ability of the Forest Service, Department of the Interior 
agencies, and their partners to respond to fires is the result of years 
of experience in the use of the Incident Command System, the Incident 
Qualifications Certification System, the Resource Ordering and Status 
System, and communications. While wildfire is the main mission, in the 
event of another hurricane or other national emergency, the Forest 
Service and Department of the Interior will assist partners as needed 
as part of the National Response Plan.

                             FIRE AVIATION

    The fire aviation program has undergone significant changes since 
the spring of 2004 when contracts for large airtankers were terminated 
in the wake of the National Transportation Safety Board report 
addressing airworthiness issues. Large airtankers are one of the many 
tools that we use to suppress wildland fires. We have increased our 
fleet of other firefighting aircraft to assist ground forces, 
particularly during extended attack. We also note that during any year, 
thousands of wildland fires are suppressed without the benefit of air 
support. We testified before this Subcommittee on February 15, 2006, 
about the status of our fire aviation programs and our interagency long 
term aviation plan, so we will not go into detail here.
    Our 2006 aviation plan includes 16 large airtankers and 258 large 
and medium helicopters. Through cooperative agreements with states and 
interagency partners, we have 2 CL-215 airtankers, and 107 single 
engine airtankers (SEATS) ready for service. Four military C-130 
aircraft equipped with the Modular Airborne Firefighting System (MAFFS) 
are currently available. Four additional MAFFS aircraft are being 
overhauled and will be ready by early summer.

                               MANAGEMENT

Fire Safety
    The tremendous complexity of the wildland fire management 
environment places many expectations upon our wildland firefighters. 
Above all else, human safety is our first priority. The Forest Service 
has adopted a foundational doctrine--principles guiding operations of 
fire suppression activities and actions. Currently, the Forest Service 
is reviewing guidance for dealing with the parts of fire suppression 
that rely on interpretation, judgment, and agility. Review of current 
practices and policies is being done by people with expertise in risk 
management, human performance, fire safety, and the fire operations 
safety council.
    Department of the Interior agencies and the Forest Service continue 
to require annual fireline safety refresher courses for all 
firefighting personnel. Additionally, the ``6 Minutes for Safety'', an 
interagency safety initiative, is issued daily during fire season and 
alerts firefighters to high-risk situations. It is distributed 
throughout the fire community.
    Contracted firefighting forces are additional assets for the 
agencies. A recent audit by the USDA Office of Inspector General looked 
at the effectiveness of administration of contract crews. The Forest 
Service agreed with the results of the audit and has implemented most 
of the recommendations; the remainder will be implemented by the end of 
this summer's fire season. This Forest Service is working with the 
National Wildfire Coordinating Group to improve interagency oversight 
for ensuring safe, reliable performance of contract crews.

Budget
    For FY2006, the total fire preparedness budget for the fire program 
for both Departments is $934.9 million. The Forest Service receives 
$666 million and allocates $478 million of this to its regions for fire 
preparedness; the remaining $188 million supports a variety of 
services, such as the National Interagency Fire Center, the National 
Advanced Fire and Resource Institute in Tucson, Arizona, Washington 
Fire and Aviation program leadership, projects at the Missoula and San 
Dimas Technology and Development Centers, the Albuquerque Service 
Center to process personnel and business transactions, and Information 
Technology programs. The Department of the Interior receives $268.8 
million for fire preparedness that is allocated to the four 
participating bureaus--the Bureau of Land Management, the Fish and 
Wildlife Service, the National Park Service, and the Bureau of Indian 
Affairs.
    In the Appropriations language for the Forest Service for FY2006, 
Congress directed that fire suppression pay a proportionate share of 
cost pools (indirect costs) on the same basis as other funds. We want 
to assure you that no crews have been reduced as a result of this 
requirement because crews are funded through fire preparedness 
allocations. However, this direction has reduced available suppression 
funding by $209 million, which may significantly increase the need for 
borrowing from other accounts in the event of a severe fire season. We 
again urge the Congress to recede from this direction.
    As a matter of policy, the Department of the Interior does not 
assess indirect charges to the Fire Suppression program. However, 
appropriate direct program costs for the Department's Aircraft 
Management Directorate are charged to suppression. This policy ensures 
that the majority of appropriated dollars reach the ground for 
suppression operations. Furthermore, Department of the Interior policy 
limits the amount of indirect charges to non-suppression programs to 10 
percent.

Cost Containment
    In 2004, the Wildland Fire Leadership Council convened a strategic 
cost panel comprised of senior State, local, Tribal and Federal 
representatives and incident management team members. The panel 
examined cost containment, including methods to better integrate 
suppression activities and vegetation management in a broader landscape 
context. Teams are currently working on recommendations and have made 
considerable progress in implementation. For example, we are working 
with the U.S. Fire Administration to refine interoperability standards 
between structural and wildland firefighters to expand the use of local 
volunteer and rural fire departments in extended attack.
    At Interior, we have aligned our 2006 Rural Fire Assistance program 
with the new Ready Reserve program to focus on providing training and 
safety gear to these volunteers to further expand wildland fire 
response capability and minimize mobilization efforts. Geographic 
coordination will be enhanced this year to more effectively manage 
national resources for large fire suppression.
    For incidents that meet certain size, cost, and duration criteria, 
we will continue interagency large fire cost containment oversight. The 
Forest Service asked the USDA Office of the Inspector General to 
conduct a large fire cost review in 2005 and results should be out 
later this year. We will continue our review of large fires in 2006.

                       HAZARDOUS FUELS REDUCTION

    We have a tremendously complex and dangerous fire and fuels 
situation in the United States. Many of the issues we are addressing 
are particularly challenging due to extended drought, climate change, 
human demographics, and societal expectations of forests and 
rangelands. We are pleased to report collaborative community-based 
stewardship is helping to restore forested landscapes to a healthy 
condition. We now treat more fuels than ever before.
    Here are some other accomplishments in reducing hazardous fuels:

  <bullet> At the request of the Western Governors' Association (WGA), 
        the Wildland Fire Leadership Council is presently reviewing the 
        ``Implementation Plan'' of the ``10 Year Comprehensive 
        Strategy'' signed by WGA and the Secretaries of Interior and 
        Agriculture in August 2001. The review is expected to be 
        completed in early summer.
  <bullet> Earlier this year, the Departments of the Interior and 
        Agriculture completed a report entitled: ``Protecting People 
        and Natural Resources: A Cohesive Fuels Treatment Strategy.'' 
        The report presents policy and management objectives and 
        methods that will help reduce fire risk.
  <bullet> The Forest Service and Department of the Interior last year 
        treated hazardous fuels on more than 2.9 million acres of land, 
        and reduced hazardous fuels on an additional 1.4 million acres 
        through other land management actions. Over 2 million of these 
        acres were in the wildland urban interface. The agencies 
        achieved resource management objectives on 489,000 acres of 
        lands in predefined geographic areas through Wildland Fire Use.
  <bullet> The Department of the Interior, in collaboration with our 
        non-federal partners, has shifted the hazardous fuels program 
        to incorporate greater community protection. In 2001, Interior 
        agencies treated some 165,000 acres in the wildland urban 
        interface. Those acres accounted for 23 percent of our total 
        program. In 2005, over 540,000 acres in the wildland urban 
        interface were treated, a 230 percent increase and 43 percent 
        of all treated acres.
  <bullet> In 2005, State Foresters and local communities treated 
        77,000 non-Federal acres of hazardous fuels in the wildland 
        urban interface using funds from the State Fire Assistance, 
        administered by the Forest Service. For FY2006, funding will be 
        used by States, local and Tribal governments and non-
        governmental organizations to build fire fighting capacity, 
        develop Community Wildfire Protection Plans (CWPPs), and 
        complete hazardous fuel projects.
  <bullet> State and Federal land management agencies and local 
        communities can use CWPPs to determine hazardous fuels 
        treatments in the wildland urban interface. As of March 1, 
        2006, 650 CWPPs covering 2,700 communities at risk have been 
        completed and 600 are in preparation.
  <bullet> In 2005, we increased firefighting capacity by providing 
        technical assistance, training and supplies to nearly 11,000 
        small rural communities through the Volunteer Fire Assistance 
        (Forest Service) and Rural Fire Assistance (Department of the 
        Interior). In 2006, additional funding will continue this work.

                                SUMMARY

    In conclusion, Mr. Chairman and members of the Subcommittee, we are 
prepared for the 2006 fire season. Where local areas experience severe 
fire risk, firefighters, equipment and teams will be assigned. We have 
a long term and complex fuels and fire situation that will continue to 
need to be addressed by communities, Tribes, States, and federal 
agencies. We appreciate your continued support and work as we move 
forward on these challenges. We are happy to answer any questions you 
might have.

    Senator Murkowski [presiding]. Thank you, Secretary Rey. 
The chairman has had to excuse himself for a few minutes and 
he's asked me to just kind of manage the order here.
    Senator Bingaman, if you would care to pose any questions.
    Senator Bingaman. Thank you very much. First, let me just 
be clear, this report, Mr. Rey, that you're referring to here, 
you say earlier this year the Department of the Interior and 
the Department of Agriculture completed a report entitled 
``Protecting People and Natural Resources: A Cohesive Fuels 
Treatment Strategy.'' We're informed that that's not been 
printed or is not available. We haven't been able to get a copy 
of that.
    Mr. Rey. It's actually at the printer now and will be 
available very shortly. We'll provide copies for the record of 
this hearing.
    Senator Bingaman. Okay. That'll be good because I had 
several questions about how that was coming. Let me also ask, I 
noticed one statement in the combined statement that you've 
submitted that this direction--you're referring back here to 
the direction by Congress, and you say this direction has 
reduced available suppression funding by $209 million, which 
may significantly increase the need for borrowing from other 
accounts in the event of a severe fire season.
    My recollection is that we have had a pattern of borrowing 
from other accounts, going back many years, whenever we wind up 
with a more severe fire season than was anticipated, which 
seems to be every year. And I guess the other concern or the 
recollection I've got is that most of the so-called borrowing 
is never paid back, so that it's really a misnomer to an 
extent. I mean, it's taking funds from another account, using 
them for fire suppression, and then never having those funds 
that were intended for that other purpose available for that 
other purpose. It's not as though you come back the next year 
and put in those funds plus more. It's usually you just start 
again and try to fund it. Is my impression correct there? Am I 
wrong about this so-called borrowing?
    Mr. Rey. Partially correct and partially not quite. In the 
early part of this decade, as we were experiencing severe fire 
seasons, we did utilize the authority provided by Congress to 
borrow from any program account available to the Secretary to 
fund fire suppression when we exhausted funds that were 
appropriated for that purpose. Two years ago--well, before I 
get to that, in subsequent supplemental appropriations bills, 
portions of that borrowed amount were reinstated, but not all 
of them. Usually that reinstatement was a negotiation between 
the administration and the appropriations committees.
    Typically, we were not repaid for the cost of staff time 
that was diverted from whatever functions that they would have 
otherwise been doing to doing fire control work or fire 
suppression work. And there were some other accounts that were 
not fully repaid, but they were not completely ignored, they 
just weren't fully repaid. Two years ago, the appropriations 
committees, and then subsequently the entire Congress, tiring 
of that situation, created a contingency account which we have 
not fully used and which we are carrying as part of the carry-
forward dollars that we'll use in 2006. I think we're sitting 
on about $500 million in that account at present. So we have 
not borrowed in the last two budget cycles and perhaps might 
not need to in this cycle, depending in part on how bad the 
fire season is, depending in part on how quickly FEMA closes 
out its account assignments--assignment accounts, and 
reimburses us for the money we spent in hurricane relief.
    Senator Bingaman. So do I take it that you are 
anticipating--if we have a severe fire season, you're 
anticipating having to borrow from these other accounts again, 
even though this contingency fund was established and still has 
$500 million in it?
    Mr. Rey. It's unclear whether we will borrow because it's 
unclear how fast the season will get bad. If we're looking at a 
late summer supplemental, as has been the case in previous 
years, we could address it there, but I would say at this point 
we've probably got a pretty good chance of not having to borrow 
this year. The point of the statement in our testimony was that 
in last year's appropriations bill the Appropriations Committee 
gave us specific direction that the wildfire suppression 
account shall be assessed for indirect costs on the same basis 
as such assessments are calculated against other agency 
programs. Previously, prior to this direction, we had not made 
full assessments into the fire suppression account for indirect 
costs in order to husband that money to avoid borrowing in the 
future. If in the course of carrying forward our 
responsibilities under the statute this year, we do make fuller 
assessments to the suppression account for those overhead 
expenses--their fair share, in other words, of some of the 
overhead--then that account will be diminished more quickly and 
that will increase the probability or at least the possibility 
that we will be borrowing at some point later in the fiscal 
year. I think the key variable, given what we have by way of 
resources available to us now, that will dictate whether we 
have to borrow or not are, first, the severity of the season 
overall and, second, when we get into the most severe part of 
the season, and then third, when either a supplemental or the 
fiscal year 2007 appropriations bill is enacted.
    Senator Bingaman. Can I just ask one follow-up, Madam 
Chairman? Do you have a projection--I mean, I made a statement 
in my opening statement that this promises to be one of the 
worst fire seasons in our State's history because of the 
drought. Would you agree with that or do you not make 
predictions on that?
    Mr. Rey. I would say for your State that's true, but for a 
good part of the rest of the West, it's not. And what will 
drive our overall cost will be not only what happens obviously 
in the Southwest, but as the fire season progresses, whether we 
see the kinds of conditions that we think are going to exist in 
the northern Rockies continue or whether that starts to 
deteriorate as the summer progresses. So, unfortunately, the 
bad news for New Mexico is, yes, this is probably going to look 
a lot like 2002 and that means that the part of our fire season 
that we enjoy in the Southwest, which is usually early May 
through mid-July, will probably be a bad one. Now what happens 
after is that is less certain.
    Senator Bingaman. Thank you.
    Senator Craig [presiding]. To the committee, some of us 
have been asked to be on the floor at 3:15 for a speech by 
Leader Frist and so I'm now going to turn to Senator Wyden for 
questions and then to Senator Salazar and we will leave this--
Jeff, if you're leaving, we'll leave this in the hands of Ron. 
I think Senator Murkowski will need to be going then, too. I 
know I will submit my questions to you for the record and I do 
appreciate your attention to them. With that, let me turn to 
Senator Wyden.
    Senator Wyden [presiding]. Thank you, Mr. Chairman. I guess 
from Mr. Rey we have heard things are going to go well in the 
State of Ohio this year, which he has touched on, but I fear 
that much of the rest of the----
    Senator Craig. In leaving this is your good hands, Senator 
Wyden, I do expect you to behave yourself.
    [Laughter.]
    Senator Wyden. I am always going to be on best behavior. I 
think what is troubling to me about all of this--and by the 
way, this has gone on for years, there was a whole history of 
this that goes back for some time--is that fighting fires has 
been to some extent a financial shell game. Essentially what 
happens is you wait for an emergency and then you go out to try 
and borrow from whatever account isn't tied down and try to 
stay in front of the marshals.
    Now, as I understood it, Mr. Rey, you said this time there 
may be some new money that has come for the contingency fund, 
so that strikes me as something that should be useful in the 
short term. But in this kind of difficult budget climate, won't 
you run through the contingency fund very quickly and then 
you're right back into the same old ritual that I call the 
financial shell game of trying to borrow from anything else you 
can get your hands on? What is your sense of how this 
contingency fund would work? This is a one time only sort of 
thing, is it not?
    Mr. Rey. It was a one time investment that's carried us 
through two fire seasons, so the question then would be what to 
do next if we find ourselves short. What we do as a normal 
course of budgeting is to budget the 10-year average for 
suppression costs as part of our budget request, so our 
suppression request has been going up each year as the fire 
seasons have been difficult and costs have been increasing. 
Next year will be the first time that the 10-year average will 
actually dip, because last year was a year where we only spent 
on firefighting itself, as opposed to the additional money 
invested in hurricane relief, about $618 million. But I think 
if we look at what we've budgeted for this year and the 
contingency account and the reimbursement from FEMA, we're 
going to end up pretty close.
    As I told Senator Bingaman, there is a pretty good chance 
that we won't be borrowing from existing operating accounts, 
but the last variables that will determine that are how severe 
the back half of the fire season is. We can project, based on 
what we know now, that we're in a pretty difficult season in 
the Southwest. What we can project with less certainty now is 
what your State will end up looking like when the fire season 
fully develops in Oregon or what the northern Rockies will look 
like. If they dry up significantly over the course of the 
latter half of May and June and the first half of July, then 
we're going to be looking at a much worse fire season than the 
case that existed the last couple of years, where they stayed 
reasonably wet and the fire seasons were benign. So one 
variable is what the back end of the fire season is going to 
look like.
    I guess the second variable is when the 2007 bill passes. 
If the 2007 bill passes as it did last year, thanks to the 
Congress we'll be already replenished without having to borrow 
any other 2006 program accounts. If, on the other hand, we get 
snarled up, as sometimes occurs, and the 2007 bill turns into 
an omnibus bill that passes at a later date, then we'll be 
fighting fires further into the latter part of fiscal 2006 and 
the first part of fiscal 2007, if it's a bad year, using the 
money that we have in hand, which in the case of a severe fire 
season might require some borrowing. But right now, given the 
resources that we have available and given the way the northern 
part of the Rockies and the Northwest look, I think we have a 
pretty good chance of not having to borrow this year. But it's 
still a pretty close call and we're going to know more as we go 
along.
    Senator Wyden. Lots of ifs. Put me down as skeptical. I 
mean, the whole history of this has been budget sleight of 
hand, trying to get money from this source to patch up this 
kind of hole. And you say if you're short you're going to be 
able to look once again to the Appropriations Committee. All I 
hear from the Appropriations Committee is ``no mas,'' that this 
is the year that they're not going to be able to get this 
additional funding.
    One other question, I know my time is close to being up. In 
addition to this process I call the financial shell game for 
fighting fires, I'm not convinced that you all spend the 
dollars you get in the right way and on the right programs. And 
in particular I'm very troubled that the programs that seem to 
be cut are the ones at the local level that do the best of 
leveraging the most local dollars to supplement the Federal 
effort. For example, you all propose to get rid of the Forest 
Service Economic Action Program. Now in our part of the 
country, for every dollar these programs get from the Forest 
Service, they've got a history of being able to leverage $5 or 
so from local sources, from nonprofits, from community actions 
programs of charitable nature and the like. Yet the one that 
you all choose to cut is the one that seems to be most 
consistent with administration philosophy in terms of getting 
more done at home. What is the logic of cutting something like 
the Forest Service Economic Action Program? Not just cutting 
it, getting rid of it all together.
    Mr. Rey. A couple of observations here: First, the Economic 
Action Program is not in and of itself a fire program. There 
are some projects that have been funded with that money that 
have a relevance to fire or fuels reduction work, but it is 
what it is.
    Senator Wyden. Just a second. Your point is a fair one. 
What I'm talking about is the economic action programs at the 
local level that are used for hazardous fuels reduction.
    Mr. Rey. And there is a portion of those programs that are 
used for it, but I think one of the things we're trying to do 
is align these accounts to produce more efficient program 
delivery by focusing on those agencies and departments who have 
a larger and more established role and a record of greater 
excellence in that--our Economic Action Program has existed 
somewhere between $15 and $25 million a year and while it's 
certainly useful and has done some useful things, our world 
development programs, funded under the farm bill at several 
orders of magnitude greater financing, do some of the same 
things.
    So what we've been trying to do is consolidate like 
programs to eliminate the amount of overhead necessary to 
deliver them, and to work with the people who were the 
constituents of our Economic Action Program and move them 
toward our world development program so that they can compete 
and receive--as many of them are now doing--world development 
grants or loan guarantees for some of the work that was 
originally funded. When we can do that, we can then take the 
Forest Service resources that were devoted to administering 
this program and reprogram that into something that is our 
center of excellence.
    In regard to the various fire programs, the State fire 
assistance grants and the volunteer fire assistance grants are 
an example of a similar phenomenon. The Department of Homeland 
Security and Fire Emergency Management administration manages a 
State grant program that is several orders of magnitude larger 
than ours, and the point we've been trying to establish is that 
the preponderance of those grants had been going to larger 
urban firefighting establishments, and with some assistance 
from the Department of Homeland Security we've been able to 
open those grants to some of the rural firefighting entities 
that are funded through the State grant program. Now, some of 
the most rural and smaller fire departments, particularly the 
volunteer fire departments, don't have access to the Department 
of Homeland Security grant program. That's why, in the broad 
scheme of things, we decided to increase our volunteer 
assistance program as we were decreasing the State grant 
assistance program. It's our objective to try to make sure that 
we can help the State firefighting agencies get money through 
the Department of Homeland Security in a larger and more robust 
program and then focus on those entities that can't access 
those programs with the money that we retain to do that through 
our National Fire Plan dollars.
    Senator Wyden. I'm going to turn this over to Mr. Salazar, 
but I'd only say two things. First, if you're talking 
administrative costs and you're talking about administrative 
overhead, these programs--come visit them in Oregon--these 
economic action programs have probably the lowest overhead of 
any programs on the planet. I mean, they are a textbook case 
for how to hold down administrative and overhead costs. And I 
will tell you that your argument that these programs that have 
leveraged so many private sector dollars are duplicative, when 
we ask you all to give us examples of what these economic 
action programs are duplicating elsewhere, like in rural 
development, we don't get any examples. We will continue the 
dialogue with you on this.
    Senator Salazar has been waiting patiently. Senator 
Salazar, given the fact that both Senator Craig and I had to 
go, can we entice you and Senator Cantwell to stay with us 
until conclusion?
    Senator Salazar [presiding]. Absolutely, Senator Wyden.
    Senator Wyden. Thank you.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Good to see you running the meeting. Thank 
you. It is a very important issue for all of us and I want to 
thank Mr. Harbour, Under Secretary Rey, Assistant Secretary 
Hatfield and Mr. Douglas for coming here today to address this 
very important issue that we're all facing.
    I have an opening statement that I will submit for the 
record, but what I would like to do today though is to focus 
really on the bark beetle problem that we see in Colorado. The 
essence of my comments and questions is: Are we doing enough 
and what more can we do to try to address this infestation that 
is causing problems and fire issues within the Western States?
    For us in Colorado, as all of you I'm sure recall, we are 
not unfamiliar with huge fires. The Hayman Fire in 2002 
involved over four counties, and 138,000 acres were burned. I 
was Attorney General at the time involved in the prosecution of 
the person who started that fire. In that same year, the 
Missionary Ridge Fire down in the southern part of the State 
burned about 70,000 acres.
    My great concern today is that we're in a position where we 
are looking at a repeat of 2002 because of two conditions: One, 
the drought is very much affecting the State of Colorado, 
especially in the southern parts of our State, and second of 
all, the major issue that we're facing with the infestation of 
bark beetle.
    I want to just show a couple of charts that demonstrate the 
problem in a very visible form. The first one is taken in 
Colorado and essentially shows the green part of this--shows 
the major problem we're facing with bark beetle. You see that 
entire side of the mountain where it's been turned brown, 
infected by bark beetle, both on the upper end and the lower 
end, and it's only the green part that still appears to be 
healthy though probably already infected by this time by the 
bark beetle itself. So it just shows the extent of the problem, 
which when you look at the overall numbers for us in Colorado, 
as of 2004 we had 1.5 million acres of national forests which 
had been infected by the bark beetle. And I understand that in 
2005 we had another 425,000 acres that were also infected. This 
last chart just shows the severity of the problem in terms of 
the fire fuel that is provided by all of these dead trees that 
have been infected by the bark beetle.
    So as I understand where we are in terms of funding to try 
to deal with this issue, there has been enough money that's set 
aside at the 2006 budget level to address fuel treatment for 
about 35,000 acres. My understanding, from Colorado, is that 
about four times as much money could actually be used with 
respect to treatment, fuel treatment of these areas. So I'd 
like you to respond, if you would, Under Secretary Rey, to just 
that specific question in terms of the need on the one hand to 
address the bark beetle problem and what appears to be about 25 
percent of the resources available to address it. And then 
second, if you also would just generally talk to us about how 
it is that we can get our hands around this huge issue, because 
it seems to me that it's going to continue to only grow 
exponentially in terms of the problem and threat that it causes 
to our national forests.
    Mr. Rey. I'd be happy to talk about both. The two pictures 
you have are very helpful, because they illustrate two points 
that I want to make. First of all, there's no question that 
we're facing a significant problem in the front range from one 
of our episodic bark beetle explosions that occur periodically 
throughout the West over time. When we can, one of the things 
we try to do is to take out spot infestations as quickly as we 
can before they spread. Once they've gotten beyond a spot 
infestation and actually start to get rolling, then your 
ability to stop them is diminished substantially because there 
are no pesticides that are useful because they're under the 
bark and for the most part pesticides, except on an individual 
tree basis, are ineffective. This looks to me like what 
probably was the beginning of a spot infestation. One of the 
ways we try to deal with an infestation like this is to go in 
and take out all the trees that are infected, using the 
categorical exclusion from more detailed documentation under 
the National Environmental Policy Act. We can get in cheaply 
and quickly, and quickly is as important as cheaply, because we 
have to get in before that spreads.
    Now, that authority has been overturned by a Federal court 
decision and we're not doing these projects under categorical 
exclusions anymore. We are, at least until we can appeal that 
decision to the Ninth Circuit or something else intervenes, 
forced to do a full environmental assessment, which takes not 
only more money, which reduces the amount of work that can be 
done overall, but more time, mitigating the prospect of doing a 
spot--attacking a spot like that quickly, before it spreads.
    Senator Salazar. Let me ask a question on the spot 
infestation. You say, ``when we can.'' I understand the legal 
challenge you have now with the recent court decision. Give me 
a quantification, if you can, Under Secretary Rey, about how we 
would use the authority, if we did have the categorical 
exclusion, in terms of going after these areas that have been 
infested. For example, if you were to take my State of 
Colorado, how many of these spots do you think we could go 
after and cut down to avoid the bark beetle from spreading to 
other areas?
    Mr. Rey. We probably would try to get almost all of them 
that are of this size. Once they get much beyond this, then 
that tool doesn't work anymore.
    Senator Salazar. When we talk about spot infestation--and I 
understand trying to get to the problem early, trying to get 
rid of those trees before the pollen spreads. What kind of 
criteria do we use to come up with the definition of what is a 
spot?
    Mr. Rey. Usually, size. If we're still under a couple of 
acres in size. That's something we would try to do with a CE, 
if we had that authority.
    Senator Salazar. So there's an acreage size; you would say 
under two acres?
    Mr. Rey. Probably more like under 5 to 10 acres in each 
case. Beyond that, if it's much larger than 10 acres, there's a 
pretty good probability it's already spread, that you didn't 
get it fast enough.
    Senator Salazar. I know I'm out of time and I want to 
respect Senator Cantwell's time as well, but could you, in just 
60 seconds or so, describe to me the general issue where you're 
doing a bark beetle containment beyond dealing with the spot 
infestation?
    Mr. Rey. That's where your second picture comes in handy--
if we could put that back up--because the middle stripe in that 
is a fuel break. Once we get to what are almost pandemic 
situations, and we're approaching that point in the Rocky 
Mountain front, then the ability to treat the whole infestation 
is severely reduced. At that point, you're looking to treat 
around communities and protect structures and the wildland 
interfacing. You're trying to build strategic fuel breaks, 
assuming that you're probably not going to be able to treat 
these areas. But if it does burn, you can keep the fire within 
a perimeter that is acceptable. That's a less than ideal 
situation, obviously, but when you get an epidemic to this 
degree, sometimes that's what you have to do. If on the next 
round you want to talk a little bit about some of the things we 
are doing in trying to encourage on the Rocky Mountain front, 
I'd be happy to talk about those as well.
    Senator Salazar. Let me ask you if you would do this, Under 
Secretary Rey, I would request formally--and I'll send you a 
letter on this--to give me a summary in writing of what it is 
that you're doing within my State. You may want to expand it 
beyond Colorado, in terms of just the National Forest System, 
with respect to bark beetle.
    Mr. Rey. I'd be happy to do that, because we've been 
meeting with a lot of your constituents, local and State 
government people, and we have a couple of things that we think 
will help, that we pioneered in northern Arizona, which a 
couple of years back had a similar infestation.
    Senator Salazar. I thank you very much. It is going to be a 
huge, continuing and very, very important issue for all of us. 
Thank you.
    [The prepared statement of Senator Salazar follows:]

   Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado

    Thank you, Mr. Chairman and Ranking Member Wyden. I appreciate this 
opportunity to examine our wildfire preparedness for the coming fire 
season. Thank you, Secretary Rey and Secretary Hatfield, for being here 
today.
    I will cut right to it: we are facing an extremely dangerous 
wildfire situation in Colorado, maybe worse than we have ever faced. 
Below-average snowfalls, protracted drought, and a massive bark beetle 
infestation have created fuel loads that threaten forest health, 
property, and human life. I fear that we are facing a perfect storm of 
conditions for devastating fires this summer in Colorado.
    The southern half of Colorado, and much of the Southwest, has been 
hit by yet another year of below-average precipitation. With the 
exception of a few areas in Colorado's northern mountains, 
precipitation levels this winter were 25-50% of average. Colorado is 
now in its seventh consecutive year of drought.
    Usually our big fires will come in late spring or summer, but we 
had our first big one just 10 days into January this year. We evacuated 
40 people from Aguilar, Colorado and three homes were destroyed . . . 
on January 10th. That doesn't bode well for July and August when the 
temperatures are in the 90s and 100s.
    In addition to the dangers caused by drought, a bark beetle 
infestation of unprecedented magnitude is killing trees over hundreds 
of thousands of acres, leaving huge, dry fuel loads in its wake. Across 
Colorado, but particularly in the Arapaho National Forest, bark beetles 
have turned entire swaths of forest into brown, dead stands. In 2004, 
bark beetles killed an estimated 7 million trees over 1.5 million acres 
in Colorado.
    When you see pictures that show the stands that have been hit by 
the bark beetle, you can see why people are so concerned. You can 
easily imagine what a fire would look like if it got into one of these 
stands--it would jump from crown to crown, racing up these ridges and 
through the forest faster than we could respond.
    Beetle-kill stands are everywhere in Grand County and Larimer 
County, and are increasingly visible in pockets along the Front Range, 
among houses and communities in the wildland-urban interface.
    The areas with smaller outbreaks, like those in the Pike National 
Forest and the Gunnison National Forest are just as worrisome as the 
massive outbreaks in northern Colorado. When we see beetle-kill trees 
like these, it usually means that the bark beetles are already 
attacking the surrounding trees.
    The beetles usually attack by chewing their way through the bark of 
the trees. At maturity, the beetles have pouches, which carry spores of 
a blue-staining fungus. In the tree, the spores dislodge from the 
beetle and the fungus begins to germinate. In a few weeks, the fungus 
blocks the conductive vessels in the bark, preventing nutrients from 
reaching the foliage. Within a year the tree's foliage turns brown and 
the tree dies. These beetle outbreaks are usually part of the natural 
process. Normally they attack a few trees that are the least healthy. 
The current drought, though, has stressed even the healthiest trees, 
making entire forests vulnerable to this infestation.
    Private land owners and local governments are doing their best to 
reduce the danger to property and lives--and I appreciate all efforts 
the Forest Service can make to partner with these local initiatives--
but there simply are not enough resources available right now to curb 
the advance of this infestation.
    At the FY06 budget levels, Colorado will receive only 35,000 acres 
of fuels treatment--but they could do three or four times as many acres 
if funding were available. An additional 12,500 acres are ready for 
timber sales and forest health treatments, but these projects, cleared 
through the National Environmental Policy Act (NEPA) process, have been 
shelved for lack of funding. People don't understand why Congress and 
the Administration aren't moving faster to curb this onslaught--to 
clear out the dead trees, to create buffers to prevent the beetle from 
spreading, from providing more resources and expertise to help local 
communities protect themselves.
    Coloradans are anxious because we remember the fire storms of 2002, 
when the Hayman Fire burned 138,000 acres on the Front Range, the 
Missionary Ridge Fire burned 70,000 acres near Durango, and scores of 
other fires across the state chewed up resources and claimed property 
and lives.
    This year could be as bad, or worse, if we don't get more resources 
to the front lines right now. We must find a way to reprogram funds, 
or, if that is not possible, provide emergency funding. Whatever we do, 
we must act quickly. The fire season is already upon us.
    Thank you, Mr. Chairman.

    Senator Salazar. Senator Cantwell, I turn the baton over to 
you.
    Senator Cantwell. I didn't know I was going to get to call 
you ``Mr. Chairman'' so soon, but thank you for chairing this 
committee. And Secretary Rey and other panelists, thank you for 
being here.
    I wanted to talk about the Department of Agriculture's 
recent inspector general report that was issued a few weeks ago 
that found that roughly one-third of the contract wildland 
firefighters did not meet----
    Senator Salazar. Senator Cantwell, since you give me the 
accolade of being the chair, the gavel----
    Senator Cantwell. For not even 30 seconds.
    Senator Salazar. Congratulations to you.
    [Laughter.]
    Senator Cantwell. Thank you, Senator Salazar. The report 
basically said that the firefighters were not meeting the 
standards set out by the National Wildfire Coordinating Group, 
or that they lacked the documentation necessary. In a lot of 
ways, the IG report was very damning in the sense of procedures 
to conduct a review of their qualifications, records, 
monitoring--all of those were not being met. So, Mr. Rey, first 
I want to know, do you concur with the findings that are in 
this IG report?
    Mr. Rey. We concur with their recommendations for action 
so----
    Senator Cantwell. You don't concur on their findings? You 
don't think it's----
    Mr. Rey. We might differ or quibble with the way some of 
the individual findings are stated, but I don't think that 
that's relevant because the recommendations are sound and we're 
going to implement them and are implementing them. And there 
were five specific recommendations and we have programs 
underway to deal with each of them.
    Senator Cantwell. And since this I think is the third time 
for you and me going round and round about fire safety and the 
training of individuals, particularly the contract workers, and 
whether they were being trained properly, asking for separation 
of actual budget expense spent on training and never getting 
that information. So now it's a little hard to say, ``Okay, 
we're going to meet and accept these recommendations and 
implement them.'' The thing that was so shocking about the 30-
Mile Fire, in which we in the Northwest lost four young 
individuals that were part of a contract group, is the fact 
that when you look back at what were some of the challenges and 
difficulties that they faced on that day, they were very 
similar to the same problems that had been faced in other 
wildland fires. In fact, it was almost haunting when you look 
at the recommendations that came out of the Storm King Fire and 
the recommendations that were then being made about what were 
the mistakes made in 30-Mile Fire. It was like looking at the 
same recommendations X number of years later and then 
repeating, ``Oh, we still haven't corrected that.'' So you can 
imagine that to just say we're going to implement those--what 
specifically is going to be done differently with these 
recommendations that's going to give those entities that are 
out there putting workers on the line and fighting fires the 
confidence that these individuals really are going to meet the 
training or requirements?
    Mr. Rey. Let me break it down recommendation by 
recommendation. Their first recommendation is that we should 
develop a program to review and verify the national contract 
firefighter qualification records. We are in the process of 
doing that and will complete that before we issue the national 
contract awards.
    Senator Cantwell. For this season?
    Mr. Rey. They will be in the 2006 crew contracts before 
those contracts are finally executed.
    The second recommendation is that we should verify that the 
training sessions conducted by the association of contractors, 
because they have banded together for training purposes and 
other purposes into an association, but that we sufficiently 
monitor their training protocols and sessions so that we can 
assure that they're in accordance with the National Wildfire 
Coordinating Group training protocols that we use for our own 
employees. And we are doing that this year as their training 
systems--their training sessions get underway this spring. So 
we will have our staff in attendance monitoring the training 
work that they're doing.
    The third recommendation is that we should ensure that the 
associations--again, the associations that represent the 
contractors--and restrict privileges to create and modify their 
electronic training records to individuals who don't have an 
employment or financial interest in any contractor's business. 
What essentially the IG said is that the electronic records of 
the training that is conducted should have a firewall so that 
it can't be accessed by individuals who have a financial 
interest in the business operations of a contractor. There 
should be a wall between the training entity of their 
association and their individual business; the individual 
contractor should not have access to those data bases, because 
there's no way to assure then the integrity of the data bases 
and the training that has occurred and been documented; and we 
will modify the contracts and evaluate the computer systems 
that the associations are using to compile the information that 
they use to report to us about the training that occurs so that 
it can't be accessed by the individual contractors as it's 
compiled.
    The fourth recommendation was to adopt the Oregon 
Department of Forestry's standardized field language assessment 
for national contract crews and to complete the pre-season 
language assessment and certification procedure. One of the 
things the IG did was to not only look at our contract 
operations but look at the Oregon Department of Forestry's 
contract operations. They actually have more contract teams 
than we do because the contract work force is a larger 
percentage of their overall work force. The IG's conclusion is 
that their language certification and assessment protocols were 
superior to ours. As we've reviewed them, we agree and we're 
substituting theirs for ours in the 2006 contracts.
    And then their last recommendation is to coordinate with 
those Federal agencies that have regulatory or enforcement 
authority in order to identify counterfeit documents used to 
obtain employment on contract crews. Those were the counterfeit 
documents associated with the immigration status of the 
individuals who are hired by the contractors. That was a 
problem years ago. We've dealt with it for a while. It's a 
chronic issue that requires a chronic--or consistent, I should 
say--level of attention. And I'd say it's probably fair that we 
haven't paid as much attention to that as we did in years past 
when it was a larger problem. The IG's recommendation is well-
considered and we'll go back to the level of monitoring and 
assessment and cooperation with the INS and Customs Service 
that we were doing several years ago when we were having a much 
more chronic difficulty with the contractors that are providing 
us this service.
    Senator Cantwell. What is the point on that last issue in 
your mind?
    Mr. Rey. The point on the last one is to make sure that 
they're here legally.
    Senator Cantwell. Because if someone's violating these--
they're violating dropping the ball on this end of the issue 
they're likely to be dropping the ball in other areas?
    Mr. Rey. Exactly.
    Senator Cantwell. Because one of the things the IG report 
was clear on is that communication on the line is critically 
important. And when you have a workforce that you can't 
communicate with--so they might in some cases even be--act 
appropriately, documented to be working, but what's the process 
for overseeing and requiring that there is good communication 
and sufficient understanding of command on the fire line?
    Mr. Rey. That's the point of adopting the Oregon Department 
of Forestry language assessment protocols, to do a better job 
of testing and assessing the English language capabilities of 
the contract crew members. That was a recommendation for----
    Senator Cantwell. If they don't meet that, they won't be 
hired?
    Mr. Rey. Correct.
    Senator Cantwell. Now, what'll the penalties be for--how 
will you assess whether the performance of individual 
associations who've done the association training sessions, how 
will you verify their success and what will you do when you 
find problems? Because obviously monitoring on the front end is 
one thing----
    Mr. Rey. Right. Being able to evaluate their success is 
part of the reason to make sure that the data bases that they 
turn over to us are secure and can't be modified, so we're 
going to install these new requirements into the contracts, 
we're going to monitor on a firsthand basis the implementation 
of these new requirements as training is conducted by the 
contractor's associations in the field, we're going to evaluate 
in addition to monitoring the data about training and 
capability that's provided to us from the association, and then 
if we're not getting the performance against these new contract 
provisions that we want, that'll be grounds for contract 
termination. If, on the other hand, what we're finding is----
    Senator Cantwell. What would contract termination mean?
    Mr. Rey. That means----
    Senator Cantwell. Would you seek more people from the same 
training group in the future?
    Mr. Rey. No, we would----
    Senator Cantwell. It would be disqualified, you're saying?
    Mr. Rey. We would terminate the contract of that 
contractor, and then, under our contracting rules, we'd have to 
evaluate the grievousness of the failure to perform on the 
contract to decide whether this is simply a case of terminating 
this contract or beginning a process of debarring the 
contractor from ever being able to bid on any further 
contracts. The contract laws do protect contractors from 
automatic debarment unless certain circumstances are met, so 
it's a fairly severe remedy to go to debarment, although it is 
done.
    Senator Cantwell. Is that part of Department regulation or 
you're just saying that's part of negotiation in contracts?
    Mr. Rey. The terms for termination are part of the 
departmental regulation. The terms for debarment are 
Government-wide standards for the most part. So debarment is a 
very severe remedy that can't be done in all instances. 
Termination, on the other hand, is something that we have a 
greater degree of flexibility on and then stop-work orders we 
have even greater flexibility on. So to go to your specific 
question, what are the remedies, the least severe remedy is a 
stop-work order, stop working on the contract until you correct 
the flaws that we've discovered. The second most severe remedy 
is to terminate the contract, you're so far away from 
performance that we don't see any point in continuing, or to 
terminate and look for another contractor to do this job. And 
then the third most severe remedy is debarment. In that case, 
you as a contractor have exhibited repeated violations and a 
failure to correct them and we have now moved into an area 
where we have grounds for debarring you, which means not only 
is this contract terminated but you can't bid on any contracts 
in the future, in some cases for a period of time and in other 
cases forever, depending on the grounds for debarment.
    Senator Cantwell. And you're saying all this will be in 
place for the 2006 fire season?
    Mr. Rey. Much of what I've described is in place as a 
matter of course. What will be in place for the 2006 fire 
season are new contract provisions that meet the five 
requirements of the IG, the five recommendations that flow from 
the IG's findings. And those new contract requirements will 
then be the ones we enforce against in deciding whether, if 
they're not met, we go to stop-work, termination, and 
ultimately, at some point, debarment.
    Senator Cantwell. And what did you mean, Mr. Secretary, 
that these mostly are in place?
    Mr. Rey. The procedures for stop-work, termination, and 
debarment.
    Senator Cantwell. Oh, okay.
    Mr. Rey. Those are not new. Those are----
    Senator Cantwell. So you think the change from this--
because this IG report is reflecting what they think has been 
practiced in the last 12 months and many more before that.
    Mr. Rey. Correct.
    Senator Cantwell. So you're saying you take this and the 
implementation of this--you think the changes--by putting 
language into contracts, it gives you the ability to terminate 
associations that aren't meeting a standard?
    Mr. Rey. Individual contractors actually. The associations 
do some of this work. It's the contractors who we have 
individual contractual relationships with.
    Senator Cantwell. Right. But the training then leads them 
into the contract.
    Mr. Rey. Right. But the remedy we would seek is against the 
contractor. They, in turn, would probably stop funding their 
association if the training protocols weren't meeting our 
needs. Their remedy would be against their association. The way 
it--hopefully, this is straightforward, but the way it works is 
that they band together to create the associations to do the 
training, because it's something that can, on the face of it, 
be done more effectively by somebody who specializes on it. We 
deal with the contractors directly though, so to the extent 
that we're dissatisfied with the training, we will obviously 
apprise the associations we're monitoring it and say, ``You're 
not serving your member companies very well, because the 
training modules and protocols that you're developing are not 
getting us to what we want.'' But our remedy is against the 
contractors ultimately. We'll just say, ``These people aren't 
trained to our new contract specifications so we're either 
going to stop-work, you can't continue until you train them, or 
we're going to terminate the contract, or ultimately debar, if 
it's a repeated violation.''
    Senator Cantwell. I am sure I'm well beyond whatever round 
we were giving to individual members, but since I'm the only 
one here, I don't hear an objection, so I'll ask you a few more 
questions, if I could.
    [Laughter.]
    Senator Cantwell. And just because it's such an important 
issue as it affects the lives of individuals who are--I think 
the people from Washington State and families who are involved 
in the 30-Mile Fire have tried to put a face on this challenge 
and focus and I applaud them for that. One of the things that 
was also talked about in the IG's report was just the 
importance of greater reliance on enhanced situational 
awareness and decisionmaking. And I saw this is the 30-Mile 
Fire, the same issues from Storm King to 30-Mile. We have these 
watch-out rules and these are the things that people should be 
looking out for, but if the individuals really don't--in a very 
short--in some instances, I think it's a 6-week training 
session and then all of a sudden they're facing a big 
catastrophic situation. I'm wondering what this means for those 
10 standing firefighting orders and 18, I think, watch-out 
situations. If they're saying, ``Listen, you need to enhance 
situational awareness and decisionmaking,'' how does that fit 
with what has been this norm by saying we have these 10 orders 
and watch-out situations?
    Mr. Rey. I think that the lesson learned from these 
fatality incidents is that the standing orders and the watch-
out criteria are good as far as they go, but what we need is a 
lot more training that provides real world circumstances that 
people can react to in a training situation so that the watch-
out and standing orders are more meaningful to them when they 
face a real life situation on the ground. So one of the things 
we've tried to do since 30-Mile is to build into our training 
modules some exercises where we put them in a situation, a 
computer-based simulator, where they face and have to use the 
standing orders and the watch-out situations as they would, or 
at least as close as we can make it to as they would, in a real 
life situation. That training is being given now more 
increasingly to our type 2 and type 3 incident commanders.
    Historically, we looked at our type 1 incident commanders, 
because of the nature of their responsibilities, as the people 
who needed the most training, because we were tasking them with 
dealing with the most difficult incidents. One of the things 
that 30-Mile taught us and that we've learned in non-fatality 
incidents where we were dissatisfied with what happened even 
though fortunately there were not fatalities is that 
transitional situations are at least as dangerous in some 
instances as what you face when you're already dealing with a 
large incident fire. Indeed, because in a transitional 
situation you're more likely working with a type 2 or a type 3 
team, you're working with a team that hasn't been trained up to 
the level of a team that we would trust with the most 
complicated and dangerous situation. So one of the things we've 
done since 30-Mile is increase the training module for our type 
2 and type 3 commanders using simulator exercises to put them 
in situations where their failure to abide by the watch-out and 
standing orders will, in a computerized scenario, put them in a 
situation that they don't want to be in, and hopefully by doing 
that, give them a better grounding in the dangers inherent in 
what a reasonably benign incident can turn into under adverse 
circumstances in a relatively short order, which is pretty much 
what happened at 30-Mile. So we hope that by that extra 
training we will have remedied that gap in the training system. 
But I think up until what we learned from 30-Mile and during 
that time period by studying some other transitional fires, we 
concluded that that was an area where we should be focusing a 
lot more training and how----
    Senator Cantwell. In this situational training, are you 
saying every firefighter's going to go through this or----
    Mr. Rey. Every incident commander and then down the line to 
crew and team leaders.
    Senator Cantwell. I'm sorry. Team leaders, you're saying?
    Mr. Rey. Right.
    Senator Cantwell. So that's a--so a team leader is maybe 
running a nucleus of about six to 10 individuals, is that 
right?
    Mr. Rey. Right.
    Senator Cantwell. So all of those--all of that hierarchy of 
communication chain you're saying would go through these and 
that's going to be required under these contracts?
    Mr. Rey. That's going to be a requirement of the 
certifications for team leaders and incident commanders for 
type 2 and type 3 incident teams to a substantially greater 
degree than it was previously.
    Senator Cantwell. And then just my last question on this 
and we can continue. I'm sure if I have other questions, we can 
follow up, but how would that have helped in the 30-Mile Fire 
situation in the sense of--because you're talking about this 
issue of transition and all of a sudden a fire goes from being 
a certain level to another level. In fact, I think that was 
exactly what happened on that particular day.
    Mr. Rey. And what we're trying to do through this training 
is to inculcate in the team leaders and the incident commanders 
a couple of things: One, simply because it seems like a benign 
incident, that doesn't mean you should ignore the standing 
orders and the watch-out orders. They are empirical and rather 
emphatic requirements no matter the severity of the incident 
and you can't ignore them because you think you've got the 
incident pretty much under control. The second thing we'd hope 
to inculcate in them is the proposition that an incident can 
take a turn quickly and materialize into something that you 
aren't expecting and that your plans for attacking the incident 
ought to assume that going in and not try to adapt to it after 
the fact when you're already at some risk and some significant 
disadvantage. So you shouldn't go into an incident without 
having already followed those standing and watch-out orders. 
You shouldn't go into an incident, no matter how benign, 
without an agreed upon escape plan. You shouldn't cut any 
corners on the assumption that what you're doing is just a mop-
up operation to an incident that's already largely under 
control because that isn't an assumption that will necessarily 
hold throughout the entirety of your deployment, and therefore 
you should start from the assumption that it won't hold, and 
act accordingly.
    Senator Cantwell. I thank you, Secretary Rey, for those 
comments. Can we at the end of this fire season get a report on 
the implementation of this?
    Mr. Rey. Sure.
    Senator Cantwell. I thank the panelists for being here and 
the committee is adjourned.
    [Whereupon, at 3:48 p.m., the hearing was adjourned.]

                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

        Responses of Gale Norton to Questions From Senator Craig

    Question 1. Thus far this year the Forest Service and the BLM have 
sent a significant number of people to help with hurricane relief, and 
expended a large amount offending to do so. As I understand it, the 
sending agency is expected to cover the cost of the base eight hour day 
while their employees are on these assignments and that FEMA, or in the 
case of the space shuttle crash, NASA, do not repay the lending agency 
for these costs.
    Can you tell me how much of the Department of the Interior funding 
has been expended on hurricane relief and, conversely, on the fires in 
Texas and Oklahoma and other states, thus far this year?
    Answer. The Department estimates the DOI bureaus have spent over 
$38 million under ESF#4 (firefighting) on FEMA mission assignments to 
support hurricane relief Approximately $16 million will be eligible for 
reimbursement by FEMA. From October 1, 2005 through March 31, 2006, DOI 
has obligated $63.9 million on all fires. The fires in Texas and 
Oklahoma have largely occurred on non-federal land--any expenditure for 
specific firefighting resources requested by State or local 
jurisdictions outside existing mutual aid agreements will be reimbursed 
to DOI. The Department also benefits from these aid agreements as non-
Federal resources support our firefighting efforts, particularly 
initial attack.
    In accordance with FEMA policy, the base eight salaries for 
firefighting personnel that responded to the hurricane under the 
National Response Plan will not be reimbursed. This is standard 
practice as the Department would have incurred these costs regardless 
of whether or not firefighters had been deployed to assist FEMA with 
its hurricane response. Base eight salaries for temporary employees 
that were extended beyond their original firefighting employment season 
are eligible for reimbursement.
    Question 2. I also understand that FEMA and others do not repay the 
lending agencies until a disaster is closed. Approximately how much 
money is currently owed to the Department of the Interior for hurricane 
recovery work this fiscal year?
    Answer. Reimbursement requests can be forwarded to FEMA monthly, 
regardless of the bill amount. Agencies should submit final bills upon 
completion or termination of mission assignments in a timely manner as 
agreed to by FEMA. The bureaus are working to compile the supporting 
documentation as required for reimbursement by FEMA. As noted in the 
response to question 1, the Department estimates that DOI bureaus have 
spent over $38 million under ESF#4 (firefighting) on FEMA mission 
assignments to support hurricane relief Approximately $16 million will 
be eligible for reimbursement by FEMA.
    Question 3. Much of the land affected by the recent fires in Texas 
and Oklahoma is in the vicinity of Department of the Interior lands or 
tribal allotments.
    Does the DOI rely on state and local resources for initial attack 
and large fire support?
    Answer. Yes. DOI relies on existing mutual aid agreements with 
State and local jurisdictions to support firefighting efforts. This is 
particularly true in remote areas where DOI firefighting resources may 
be several hours away from the land they protect. Of the recent fires 
in Texas and Oklahoma, only the East Amarillo Complex fires were near 
DOI lands (Lake Meredith NRA).
    Question 4. What effect will the proposal to eliminate funds for 
Rural Fire Assistance--the program that supports these local resources 
near DOI lands--have on the Department's ability to cooperatively 
address the suppression needs in Texas, Oklahoma, and throughout the 
West?
    Answer. The Department of the Interior has invested heavily each 
year since the creation of the National Fire Plan to help small 
community and rural fire departments with equipment, training, and 
public education. For the future, we are moving more toward assisting 
these departments with specific wildland fire training to further 
enhance their response capabilities. Beginning in FY 2006, Preparedness 
funds have been set aside to implement the Ready Reserve program as a 
pilot project. In 2006, this program is closely aligned with the Rural 
Fire Assistance program, and is designed to expand wildland fire 
response capability by providing wildland fire training and technical 
assistance to local and rural fire department personnel. The 2007 DOI 
request for Preparedness continues the $1.9 million set aside for 
advancing the Ready Reserve concept. The 2007 Interior budget does 
propose to terminate the Rural Fire Assistance program; however, the 
Department will continue ongoing efforts to work with the Department of 
Homeland Security to meet the needs of rural fire departments for basic 
training and equipment through the much larger DHS Assistance to 
Firefighters Grant program. The Department recently updated the 
existing agreement with DHS that will ensure a greater role for the 
wildland fire agencies in reviewing grants to departments through 
programs they administer. As part of this enhanced collaboration, the 
two Departments now link websites to better direct those seeking grants 
to rural fire departments to available funding.
    In FY 2005, the DOI and USDA Forest Service provided technical 
assistance, training, supplies, and equipment to nearly 11,000 small 
rural communities through Rural Fire Assistance (DOI) and Volunteer 
Fire Assistance (USDA Forest Service) and entered into cooperative 
agreements with many rural volunteer fire departments for the purpose 
of protection of both communities and natural resources. For 2007, the 
Administration's budget proposal reflects a continued commitment to 
Volunteer Fire Assistance, which supports communities of less than 
10,000 inhabitants.
    Question 5. I've heard that the Forest Service is working on a plan 
to establish two 7 or 8 person Incident Command Teams called National 
Incident Management Organization or NIMO teams with at least one of 
them being stationed at the NIFC facility in Boise.
    What can you tell me about these NIMO teams? For example, how will 
they work? Who is going to pay for them and from what funding sources, 
and what work will they accomplish?
    Answer. The Forest Service is the lead for this proposal. 
Accordingly, the Department of the Interior defers to the Forest 
Service in responding to this question as this proposal involves Forest 
Service personnel and obligations. DOI has not proposed funding for 
these teams in FY 2007.
    Question 6. And can you tell me why we find these things out from 
people outside the agency when, if my information is correct, these 
teams could cost up to $30 million per year?
    Answer. The Department defers to the Forest Service for a response 
to this question, as this proposal involves Forest Service obligations.

       Responses of Gale Norton to Questions From Senator Dorgan

    Question 1. While the budget for firefighting increases in your 
request, you propose cuts in critical fire preparedness and prevention 
programs that keep fires from starting, provide resources to state and 
local governments, and maintain firefighting readiness. The 
administration's Forest Service 2007 budget request proposes decreases 
for fire preparedness, state fire assistance, fire research, and fire 
rehabilitation. The request for Interior proposes cuts for hazardous 
fuels reduction and completely eliminates the rural fire assistance 
grants program.
    How do you reconcile these budget cuts with your claims about the 
sufficiency of the fire budget?
    Answer. DOI currently plans and budgets all predictable 
firefighting expenses within the Preparedness account, including all 
firefighters and aviation resources. The $6 million increase requested 
for Preparedness would fund fixed costs for this firefighting force. 
The Department and the Forest Service are currently engaged in the 
development of Fire Program Analysis, an innovative system to conduct 
fire management planning and budgeting across ownership and 
jurisdictional boundaries. Beginning with the 2008 budget request, this 
effort is designed to provide efficiencies through common and unified 
planning and budgeting.
    We believe that the hazardous fuels reduction funding request will 
continue to sustain significant progress toward performance goals. By 
using new authorities (such as stewardship contracting) to leverage 
additional resources while also more efficiently using existing funds, 
and by better use of partnerships and collaboration, the bureaus have 
been able to exceed performance targets the past two years.
    Although the 2007 budget proposes to eliminate the pilot RFA grant 
program, the request continues to fund the Ready Reserve program. This 
DOI pilot program began in FY 2006 with $1.9 million in Preparedness 
funding. The purpose of this program is to strengthen initial attack 
and extended capabilities of rural fire departments (RFDs) that provide 
firefighting assistance on DOI lands. In 2006, firefighter training 
will be repackaged for delivery at local fire facilities around the 
country. Additional training will be developed that bridges existing 
training in both the structural and wildland fire sectors, and training 
delivery will begin. With these funds, a supplementary workforce of 
1,000-2,000 RFD personnel would be trained each year. This enhancement 
of local capacity will reduce the Department's reliance on the more 
expensive alternative of transporting Federal and contract firefighters 
from other regions of the country.
    Question 2. How can you make these cuts without shortchanging your 
level of readiness?
    Answer. The Department's 2007 budget proposal includes a modest 
reduction to the hazardous fuels budget. Despite this reduction, 
funding for the hazardous fuels program in 2007 would still be more 
than 4 times the level provided by Congress in FY 2000.
    Since we plan and budget all predictable firefighting expenses 
within the Preparedness account, including all firefighters and 
aviation resources, the Department does not expect readiness levels 
will be adversely affected by the proposals. The budget includes an 
increase of $6 million to fund fixed costs for both firefighters and 
aviation resources.
    Question 3. Funding for wildland fire grants to rural fire 
departments is zeroed out in the Interior budget request. The budget 
request states that Interior has aligned its fire assistance program to 
expand local fire response capability and minimize federal mobilization 
efforts. This looks like you are trying to shift fire suppression costs 
to local fire departments, while cutting off their financial support. 
Your budget also claims that the $10 million rural fire assistance 
grant program can be eliminated because of cooperation with the Forest 
Service volunteer fire assistance and the Department of Homeland 
Security Assistance to Firefighters grant programs. The budget for 
Forest Service volunteer fire assistance grants is only going up by 
$38, 000. The DHS program is being slashed from $648 million to $293 
million. It is obvious that the administration has no intention of 
providing necessary support to the local fire departments that put out 
thousands of fires on BLM lands, national parks, and wildlife refuges.
    How do you justify cutting eliminating the rural fire assistance 
grant program when the administration is drying up other sources of 
financial assistance?
    Answer. As explained above, the Department continues to fund the 
Ready Reserve program at $1.9 million. In 2007, this program will train 
and provide safety gear for about 1,000-2,000 local firefighters.
    The Ready Reserve program was appropriated $1.9 million in FY 2006; 
awards are not yet complete. Those funds will be spent for the 
following:


------------------------------------------------------------------------

------------------------------------------------------------------------
Training Repackaging......................................   $250,000
Training Development......................................   $250,000
Personal Protective Equipment.............................   $585,000
Training Delivery.........................................   $789,000
------------------------------------------------------------------------


    In FY 2007, the program will direct all funds to training.
    Question 4. What incentive will there be for rural fire departments 
to respond to fires on federal land?
    Answer. Local firefighters will likely continue to respond to fires 
that threaten their communities. Where they respond to fires on DOI 
lands in remote areas that have no locally available Federal 
firefighters, the Department will continue to emphasize that training 
and safety gear may be available through the Ready Reserve program. We 
also continue to expand our working relationship with the Forest 
Service and DHS, to ensure that limited funds are efficiently allocated 
to eliminate duplication and target those rural departments most in 
need of critical training and safety gear.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                    Mescalero Apache Tribe,
                                      Mescalero, NM, April 4, 2006.
Hon. Jeff Bingaman,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senator Bingaman: For FY2006, the Bureau of Indian Affairs 
(BIA) has enacted substantial budget cuts in the Mescalero Agency's 
Fire Preparedness Program. The fact of the matter is--this level of 
budget reduction will dramatically increase the potential for 
catastrophic escape wildfire on lands of the Mescalero Apache Tribe. 
The budget cuts combined with what is predicted to be the region's 
worst drought since the 1950's will place life, property and untold 
natural resources at risk.
    The Mescalero Apache Tribe is completely dependent on their land 
and natural resources for spiritual, cultural and economic sustenance. 
The levels of budget cuts that have been enacted leave the Mescalero 
lands susceptible to the worst ravages of wildfire, and could 
financially devastate Tribal enterprises such as Mescalero Forest 
Products and the Inn of the Mountain Gods Resort and Casino.
    Furthermore, I must stress that the level of budget cuts will be a 
serious breach in the Bureau's federal trust responsibility to the 
Mescalero Apache Tribe. The cuts will severely limit the capability to 
pre-position fire apparatus and crews in anticipation of a rapidly 
approaching ``Extreme Fire Danger'' manning classification. Ignitions 
that occur acid escape during times of limited coverage will likely 
become major conflagrations costing untold dollars to suppress and 
rehabilitate. The potential damage from unmitigated wildfire creates 
unfathomable levels of liability for the Bureau and federal government.
    In more concrete terms, the budget cuts will cause a major 
Reduction in Force (RIF) within the Fire Management Section of the 
Mescalero Agency Branch of Forestry. The RIF will impact approximately 
10 permanent employees, all Tribal members. In addition, funding will 
only allow hiring of seasonal ``preparedness'' staff for 5 of the 13 
pay periods during the normal tire season of rid-March through 
September. Safety will also become a concern, as funding will be 
minimal for fire fighter training and replacement of fie equipment and 
supplies.
    The entire Department of Interior has been very active in educating 
all publics, including tribal publics, of wildfire dangers in recent 
years. The Mescalero Apache Tribe has done its part to actively promote 
and implement hazardous fuels reductions projects on the reservation 
and create defensible space. Now to decapitate the effectiveness of 
ground-pounding fire fighting resources is near incomprehensible.
    Some BIA staff has suggested that other federal agencies could 
provide fire suppression coverage of tribal trust lands through 
cooperative agreements. In theory this may be true, but in reality it 
is not. The Mescalero Apache Tribe expects the Bureau to be the primary 
contact in government to government relations with the United States 
concerning trust issues. It is also a fact that other federal agencies, 
such as the US Forest Service, do not have adequate staffing and are 
undergoing similar budget cuts making this suggestion unrealistic.
    Therefore, I am requesting your assistance to help restore Federal 
funding that will allow the Mescalero Agency to adequately prepare for 
a potentially dangerous fire season. If you have any questions 
concerning this request, please feel free to contact me so we may 
discuss the situation further. Your assistance in this very grave 
matter is deeply appreciated.
            Sincerely,
                                             Mark R. Chino,
                                                         President.


</pre></body></html>
